<html>
<title> - DRUG TRADE AND THE TERROR NETWORK</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                   DRUG TRADE AND THE TERROR NETWORK
=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 3, 2001

                               __________

                           Serial No. 107-93

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform







                       U. S. GOVERNMENT PRINTING OFFICE
81-496                          WASHINGTON : 2002
___________________________________________________________________________

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          ------ ------
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
BENJAMIN A. GILMAN, New York         ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida,               BERNARD SANDERS, Vermont
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JIM TURNER, Texas
DOUG OSE, California                 THOMAS H. ALLEN, Maine
JO ANN DAVIS, Virginia               JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          Christopher Donesa, Staff Director and Chief Counsel
                    Jim Rendon, Congressional Fellow
                          Conn Carroll, Clerk
           Denise Wilson, Minority Professional Staff Member





                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 3, 2001..................................     1
Statement of:
    Bach, Bill, Director, Office of Asia, Africa, Europe, and NIS 
      Programs, U.S. Department of State.........................   101
    Hutchinson, Asa, Administrator, Drug Enforcement 
      Administration.............................................    12
Letters, statements, etc., submitted for the record by:
    Bach, Bill, Director, Office of Asia, Africa, Europe, and NIS 
      Programs, U.S. Department of State, prepared statement of..   103
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............     8
    Hutchinson, Asa, Administrator, Drug Enforcement 
      Administration, prepared statement of......................    15
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     3


                   DRUG TRADE AND THE TERROR NETWORK

                              ----------                              


                       WEDNESDAY, OCTOBER 3, 2001

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2154, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Gilman, and Cummings.
    Staff present: Christopher Donesa, staff director and chief 
counsel; Roland Foster, professional staff member; Conn 
Carroll, clerk; Jim Rendon, congressional fellow; Tony Haywood, 
minority counsel; Denise Wilson, minority professional staff 
member; and Earley Green, minority assistant clerk.
    Mr. Souder. This hearing is called to order. Thank you all 
for coming.
    In the past 3 weeks, our Nation has been forced to 
simultaneously examine a number of critical issues with new 
urgency and vigor. For drug policy, the September 11th attacks 
on our country immediately highlighted the dark synergies 
between narcotics trafficking and international terrorism. 
Afghanistan has always been one of the world's leading 
producers of opium, but very little of it has entered the 
United States, and our national attentions have focused on 
other sources of supply.
    We must now confront the new reality that the Afghan drug 
trade, largely without crossing our borders, has harmed our 
country just as much as the drugs from half a world away that 
reach American's streets. The Afghan drug trade has given 
direct financial support for the Taliban regime to harbor 
international terrorists and at least indirectly assist Osama 
Bin Laden and the al-Qaeda terrorist network to grievously 
attack the United States of America.
    The Taliban have controlled as much as 96 percent of the 
opium-growing area in Afghanistan and have consistently 
collected a 10 percent so-called ``religious tax'' on the 
narcotics trade, despite the fact that drugs are against 
traditional Islamic law.
    Reports also suggest that the Taliban have actively 
participated in the drug trade by controlling trafficking 
groups within Afghanistan. Their total drug revenue could be 
more than $50 million per year.
    Just as seriously, we have seen every indication, including 
apparently confirmation from the United Nations, that the 
Taliban have stockpiled drugs for sale on the world market. 
Their highly publicized ban on new poppy production appears, in 
reality, to be a coldly calculated ploy to control the world 
market price for their opium and heroin.
    Accordingly, we must quickly determine how best to address 
serious drug policy issues to which we previously had devoted 
little national attention.
    First, what is the true extent of the Taliban and terrorist 
involvement in the drug trade? As part of this, we must also 
consider increasing evidence of links and synergies between the 
drug cartels and terrorist organizations, such as the recent 
arrest of IRA bomb experts in Colombia and direct threats made 
by the Colombian FARC to attack targets in the United States.
    Second, what adjustments need to be made to our national 
narcotics strategy to control the financial support that drug 
trade gives to terror groups? Our international programs are 
designed almost entirely to break sources of supply coming into 
the United States. We must now consider whether additional 
international narcotics control and law enforcement programs 
may be necessary which are not organized to keep drugs out of 
our own country, but instead to stop worldwide trade and cutoff 
illicit revenue sources.
    Third, what are the potential short-term ramifications of 
the Afghan drug trade in the United States? We have seen rumors 
alleging that the Taliban may intend to release large 
quantities of opium and heroin into the American market, and 
some anecdotal evidence of rapidly declining prices for these 
drugs. We must quickly assess whether there is any substance to 
the rumors, whether the Taliban has any ability to quickly move 
drugs into our country, and, if so, how to effectively respond 
through interdiction and law enforcement.
    Today for the first time we welcome the new DEA 
Administrator, Asa Hutchinson, back to the subcommittee. He is 
our recent colleague in the House and on the committee and now 
is an even closer friend and ally in the fight against drugs.
    From the State Department we welcome Bill Bach, who is 
Director of the Office of Asia, Africa, Europe and NIS programs 
in the Bureau of International Narcotics and Law Enforcement 
Affairs.
    I would also like to recognize that Assistant Secretary 
Randy Beers wanted to be here today to discuss this important 
matter, but was prevented from doing so by unavoidable schedule 
conflicts on equally pressing matters.
    We look forward to hearing from both of you.
    Before we move to testimony and questioning, the Chair will 
announce that I have informally agreed with the witnesses not 
to discuss a few specific issues relating to matters which 
could be under national security review, mostly whatever 
immediate, short-term options may or may not exist to deal with 
the Afghan drug trade. In that spirit, I will ask Members to 
try to limit their questioning to general background and policy 
matters.
    [The prepared statement of Hon. Mark E. Souder follows:]
    [GRAPHIC] [TIFF OMITTED] 81496.001
    
    [GRAPHIC] [TIFF OMITTED] 81496.002
    
    [GRAPHIC] [TIFF OMITTED] 81496.003
    
    Mr. Souder. I now yield to our distinguished ranking 
member, Mr. Cummings.
    Mr. Cummings. Mr. Chairman, I want to join in welcoming 
Director Bach from the State Department and our esteemed former 
colleague, Asa Hutchinson, for appearing before the 
subcommittee today.
    This is our first opportunity to hear from our new DEA 
Administrator, and we certainly congratulate you, as we've done 
before. And, just as surely as we look forward to hearing his 
insights, we also regret that his first appearance before this 
subcommittee comes under such irregular and horrible 
circumstances.
    Mr. Chairman, the horrific September 11th attacks on the 
World Trade Center towers and the Pentagon sent our Nation and, 
indeed, the entire civilized world a wake-up call like no 
other. The sophistication, coordination, and skill of the 
attacks left no doubt that there were many actors and ample 
financial and other resources behind these attacks.
    Accordingly, this massive aggression against the United 
States immediately intensified U.S. determination to identify 
the various sources of support for international terrorist 
organizations that are clearly hell bent on undermining the 
American way of life by instilling fear among our people.
    One of those sources we know to be drug trafficking. 
Afghanistan has long been one of the world's leading source 
countries for opium.
    It is interesting to note that yesterday, in one of his 
greatest speeches, Prime Minister Tony Blair said that 
Afghanistan accounts for 90 percent of the opium flowing 
through his country.
    Under Taliban control, however, opium production sharply 
increased, and in 1999 the State Department identified 
Afghanistan as the world's No. 1 opium-producing nation.
    Because only an estimated 5 percent of illicit opiates 
consumed in the United States comes from Afghanistan, American 
counter-drug resources have been concentrated in Latin America 
and the Far East, where the great majority of United States 
consumed illicit drugs originate.
    The events of September 11th, however, dramatically 
underscore the ancillary global threat of the Afghan drug trade 
as a source of financial support for terrorist activities well 
beyond the Middle East--on our own soil, in fact.
    We know that the Taliban government has profited greatly 
from the sharp increase in Afghan opium production, and there 
is mounting evidence, moreover, that narcotics-related income 
has been used by the Taliban to provide support for 
international terrorist activities, including those of Osama 
Bin Laden and al-Qaeda terrorist network. It is estimated that 
the Taliban takes in as much as $50 million annually in drug-
related income.
    The United Nation's Committee of Experts on Afghanistan has 
found that funds raised from the production and trading of 
opium and heroin are used by the Taliban to buy arms and other 
war material and to finance the training of terrorists and 
support the operations of these extremists in neighboring 
countries and beyond.
    For years, the Taliban government was widely criticized in 
the international community for its blatant failure to curtail 
opium production and trafficking. In July 2000, the Taliban 
responded by issuing a highly publicized and purported 
religion-based ban on opium growth, cultivation, and 
trafficking--the pronouncement on what has amounted in the eyes 
of most of the informed observers to be a very cynical joke.
    The Taliban continues to stockpile opium. There has been a 
rise in the price of opium on the world market. Trafficking 
continues unabated, and the approaching poppy planting season 
will likely confirm that the Taliban's supposed prohibition on 
poppy growth is, if not worse, going unenforced.
    As President Bush pronounced before a rare joint session of 
Congress, the United States has been thrust by the events of 
September 11th into a new war, a new kind of war, a war in 
which disrupting supply chains is as much about freezing 
private financial assets as bombing bridges; a war that is as 
much about law enforcement as military action.
    The role of the drug trade in financing and support the 
enemy in this rare war means that there will be an important 
role for the Drug Enforcement Administration to play. 
Increasingly, we are bound to find that the foreign enemies in 
the war on drugs and those in the new war on terrorism are 
identical, or at least intertwined, accomplices in one 
another's crimes.
    Underscoring this is the fact that Bin Laden and many of 
his ideological disciples evidently view drug trafficking not 
merely as fundraising and networking tool, but as constituting, 
in and of itself, a weapon of mass destruction against western 
societies.
    We talk a lot about the awful prospect of biological and 
chemical weapons being unleashed upon an unsuspecting American 
public, Mr. Chairman, but a visit to my District will confirm 
that, whether or not it was conceived as such, a biochemical 
weapons attack on the United States has long since begun, and 
it has been effective in destroying untold lives and 
communities throughout this Nation.
    To the extent drug trafficking is now being used by 
terrorists for the express purpose of inflicting harm on 
societies, it seems to me we are seeing not only a mutually 
dependent relationship between distinct types of criminal 
actors and activities, but, moreover, a convergence of threats.
    What we have begun to see in Colombia reinforces this 
notion. In just the past few weeks, we've seen two IRA 
explosives experts arrested for assisting the FARC and heard 
the recorded voice of a FARC leader issuing an explicit threat 
of attacks on American civilians wherever they may be found, 
including on American soil.
    All of this, Mr. Chairman, speaks clearly to how much the 
exportation of drugs and terror are becoming intertwined. As 
you have indicated, we will not be getting into prospective 
approaches that may bear on national security concerns today, 
but it seems clear to me that the DEA's intelligence and 
expertise in identifying, tracking, and disrupting drug 
trafficking cells must be brought to bear in concert with the 
many other weapons being employed in America's new war.
    I look forward to the hearing of our witnesses today and I 
thank you, Mr. Chairman, for this timely hearing.
    Mr. Souder. Thank you very much for your statement.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]
[GRAPHIC] [TIFF OMITTED] 81496.004

[GRAPHIC] [TIFF OMITTED] 81496.005

[GRAPHIC] [TIFF OMITTED] 81496.006

[GRAPHIC] [TIFF OMITTED] 81496.007

    Mr. Souder. Before proceeding, I'd like to take care of a 
couple of standard procedural matters.
    I'd first ask unanimous consent that all Members have 5 
legislative days to submit written statements and questions for 
the hearing record, and that any answers to written questions 
provided by the witnesses also be included in the record. 
Without objection, so ordered.
    Second, I ask unanimous consent that all exhibits, 
documents, and other materials referred to by Members and the 
witnesses may be included in the hearing record and that all 
Members be permitted to revise and extend their remarks. 
Without objection, it is so ordered.
    Would the witnesses please stand and raise your right hands 
and I'll administer the oath. As an oversight committee, it is 
our standard practice to ask all of our witnesses to testify 
under oath.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that the witnesses have 
each answered in the affirmative.
    Witnesses will now be recognized for opening statements. It 
is my privilege to first recognize the distinguished 
Administrator of the Drug Enforcement Administration, my 
friend, Administrator Hutchinson.
    You are recognized for your opening statement.

 STATEMENT OF ASA HUTCHINSON, ADMINISTRATOR, DRUG ENFORCEMENT 
                         ADMINISTRATION

    Mr. Hutchinson. Thank you, Mr. Chairman, Ranking Member 
Cummings. It is a privilege to be back in this committee and 
back on Capitol Hill, and the first time as Administrator of 
the DEA.
    All of the DEA deeply appreciates this committee's 
leadership on our fight against international drug trafficking, 
and I want to say that both the chairman's comments and the 
ranking member's comments were right on point in reference to 
the battles that we face.
    I have been asked to testify on the connection between 
international drug trafficking and terrorism, and let me 
emphasize at the outset that we would be ill advised to ignore 
the extent to which the profits from the drug trade are 
directed to finance terrorist activities. The issue has to be 
of paramount concern to our Nation, and it certainly is to the 
DEA.
    The recent attacks on our Nation graphically illustrate the 
need to starve the financial base of every terrorist 
organization capable of violence to American citizens and 
property, whether abroad or at home. In many instances, the 
terrorist organizations benefit from the proceeds from the 
illegal drug trade. In Colombia, the FARC carries out acts of 
political violence with a portion of their funding coming from 
drug-related activities. Unlike their counterparts in Colombia, 
where the government is in strong opposition to both drug trade 
and rebel violence, the terrorists in Afghanistan enjoy the 
benefits of an opium-driven economy in which the ruling 
authorities, the Taliban, embrace both drug trafficking and 
terrorist training.
    The cells of terrorists are disbursed beyond the geographic 
boundaries of Afghanistan, much in the same manner as other 
international narcotics syndicates. Consequently, the DEA's 
approach to both the drug trade and our Nation's response to 
terrorism must be equally global in scope.
    DEA intelligence confirms the presence of a linkage between 
Afghanistan's ruling Taliban and international terrorist Osama 
Bin Laden. Although the DEA has no corroborated, direct 
evidence to confirm that Bin Laden is involved in the drug 
trade, the relationship between the Taliban and Bin Laden is 
believed to have flourished, in large part due to the Taliban's 
substantial reliance on the opium trade as a source of 
organizational revenue. In fact, the very sanctuary enjoyed by 
Bin Laden is based on the existence and control of the Taliban, 
whose modest economy is dependent upon opium. This connection 
defines the deadly symbiotic relationship between the illegal 
drug trade and international terrorism.
    In reference to the Taliban, DEA possesses substantial 
source information indicating ties between the drug trade and 
the Taliban. Acting as the de facto government of Afghanistan, 
the Taliban taxes and directly benefits from all aspects of the 
opium trade. DEA intelligence reveals that taxation is 
institutionalized. It is even institutionalized to the point 
that the Taliban provides receipts for collected revenues, and 
it's on the board and I offer as my testimony exhibit A, a 
receipt from the tax collectors, and it has been translated, 
that says, ``To the Honorable Road Tax Collectors: Gentlemen, 
the bearer of this letter who possess four kilograms of white 
good has paid the custom duty at the Shinwar custom. It is 
hoped that the bearer will not be bothered further.'' And it is 
signed, of course. And that is a receipt for the taxation that 
is paid by the traffickers to the Taliban government.
    And so it is institutionalized, but it is not a 
standardized system of taxation. While the current tax rate for 
cultivated opium appears to be 10 percent, the taxation of 
processing and transportation of the product is sporadic and 
taxed at varying rates.
    In 2001, after the much-heralded Taliban prohibition on 
opium poppy cultivation, Afghanistan reduced their opium 
production from about 4,000 metric tons in 2000 to 74 metric 
tons in 2001. And another exhibit that I've put on the board 
shows the increase in the Afghanistan opium production from 
1994 all the way through 2000, and the dramatic drop in 2001. 
And so clearly the Taliban government has an enormous amount of 
control on what is produced and what is allowed out of the 
country.
    Despite this significant decrease in 2001 and the Taliban's 
claims of lab destructions, DEA has seen no decrease in 
availability and no increase in prices of southwest Asian 
heroin in the United States and in Europe. This indicates that 
significant amounts of opiates still remain available.
    According to the United Nations, Afghan traffickers 
typically store up to 60 percent of each year's opium crop for 
future sales, and since the ban by the Taliban the kilogram 
price of opium has skyrocketed from $44 U.S. money to over $400 
per kilo. This price increase, which was limited to the 
immediate region and did not resonate in the international 
markets, appeared to be a means for the Taliban to capitalize 
on a rise in the prices of a commodity over which they exercise 
virtual total control.
    DEA intelligence indicates the Taliban's role was not a 
passive one, and that they are engaged in the stockpiling of 
opium. The net effect of this stockpiling is to force the local 
price substantially upward, which price escalation continued 
until the recent weeks.
    In the wake of the recent mass exodus from Afghanistan, 
opium wholesalers were reportedly dumping their stocks for as 
low as $95 per kilo, apparently in anticipation of any 
intervention in the region.
    The beneficial partnership of drug traffickers and 
terrorists will challenge the resilience of all law enforcement 
agencies. It will necessitate a continued commitment to our 
anti drug leadership overseas, and that is certainly something 
we'll have to focus on.
    The DEA will continue to aggressively identify and build 
cases against these organizations contributing to terrorism. In 
doing so, we will limit the ability of the traffickers to use 
their profits as a means to support, finance, and benefit their 
incredibly inhumane assaults on society and the rule of law.
    Thank you for the opportunity to testify. I'll look forward 
to any questions you might have.
    Mr. Souder. Thank you very much.
    [The prepared statement of Mr. Hutchinson follows:]
    [GRAPHIC] [TIFF OMITTED] 81496.008
    
    [GRAPHIC] [TIFF OMITTED] 81496.009
    
    [GRAPHIC] [TIFF OMITTED] 81496.010
    
    [GRAPHIC] [TIFF OMITTED] 81496.011
    
    [GRAPHIC] [TIFF OMITTED] 81496.012
    
    [GRAPHIC] [TIFF OMITTED] 81496.013
    
    [GRAPHIC] [TIFF OMITTED] 81496.014
    
    [GRAPHIC] [TIFF OMITTED] 81496.015
    
    [GRAPHIC] [TIFF OMITTED] 81496.016
    
    [GRAPHIC] [TIFF OMITTED] 81496.017
    
    [GRAPHIC] [TIFF OMITTED] 81496.018
    
    [GRAPHIC] [TIFF OMITTED] 81496.019
    
    [GRAPHIC] [TIFF OMITTED] 81496.020
    
    [GRAPHIC] [TIFF OMITTED] 81496.021
    
    [GRAPHIC] [TIFF OMITTED] 81496.022
    
    [GRAPHIC] [TIFF OMITTED] 81496.023
    
    [GRAPHIC] [TIFF OMITTED] 81496.024
    
    [GRAPHIC] [TIFF OMITTED] 81496.025
    
    [GRAPHIC] [TIFF OMITTED] 81496.026
    
    [GRAPHIC] [TIFF OMITTED] 81496.027
    
    [GRAPHIC] [TIFF OMITTED] 81496.028
    
    [GRAPHIC] [TIFF OMITTED] 81496.029
    
    [GRAPHIC] [TIFF OMITTED] 81496.030
    
    [GRAPHIC] [TIFF OMITTED] 81496.031
    
    [GRAPHIC] [TIFF OMITTED] 81496.032
    
    [GRAPHIC] [TIFF OMITTED] 81496.033
    
    [GRAPHIC] [TIFF OMITTED] 81496.034
    
    [GRAPHIC] [TIFF OMITTED] 81496.035
    
    [GRAPHIC] [TIFF OMITTED] 81496.036
    
    [GRAPHIC] [TIFF OMITTED] 81496.037
    
    [GRAPHIC] [TIFF OMITTED] 81496.038
    
    [GRAPHIC] [TIFF OMITTED] 81496.039
    
    [GRAPHIC] [TIFF OMITTED] 81496.040
    
    [GRAPHIC] [TIFF OMITTED] 81496.041
    
    [GRAPHIC] [TIFF OMITTED] 81496.042
    
    [GRAPHIC] [TIFF OMITTED] 81496.043
    
    [GRAPHIC] [TIFF OMITTED] 81496.044
    
    [GRAPHIC] [TIFF OMITTED] 81496.045
    
    [GRAPHIC] [TIFF OMITTED] 81496.046
    
    [GRAPHIC] [TIFF OMITTED] 81496.047
    
    [GRAPHIC] [TIFF OMITTED] 81496.048
    
    [GRAPHIC] [TIFF OMITTED] 81496.049
    
    [GRAPHIC] [TIFF OMITTED] 81496.050
    
    [GRAPHIC] [TIFF OMITTED] 81496.051
    
    [GRAPHIC] [TIFF OMITTED] 81496.052
    
    [GRAPHIC] [TIFF OMITTED] 81496.053
    
    [GRAPHIC] [TIFF OMITTED] 81496.054
    
    [GRAPHIC] [TIFF OMITTED] 81496.055
    
    [GRAPHIC] [TIFF OMITTED] 81496.056
    
    [GRAPHIC] [TIFF OMITTED] 81496.057
    
    [GRAPHIC] [TIFF OMITTED] 81496.058
    
    [GRAPHIC] [TIFF OMITTED] 81496.059
    
    [GRAPHIC] [TIFF OMITTED] 81496.060
    
    [GRAPHIC] [TIFF OMITTED] 81496.061
    
    [GRAPHIC] [TIFF OMITTED] 81496.062
    
    [GRAPHIC] [TIFF OMITTED] 81496.063
    
    [GRAPHIC] [TIFF OMITTED] 81496.064
    
    [GRAPHIC] [TIFF OMITTED] 81496.065
    
    [GRAPHIC] [TIFF OMITTED] 81496.066
    
    [GRAPHIC] [TIFF OMITTED] 81496.067
    
    [GRAPHIC] [TIFF OMITTED] 81496.068
    
    [GRAPHIC] [TIFF OMITTED] 81496.069
    
    [GRAPHIC] [TIFF OMITTED] 81496.070
    
    [GRAPHIC] [TIFF OMITTED] 81496.071
    
    [GRAPHIC] [TIFF OMITTED] 81496.072
    
    [GRAPHIC] [TIFF OMITTED] 81496.073
    
    [GRAPHIC] [TIFF OMITTED] 81496.074
    
    [GRAPHIC] [TIFF OMITTED] 81496.075
    
    [GRAPHIC] [TIFF OMITTED] 81496.076
    
    [GRAPHIC] [TIFF OMITTED] 81496.077
    
    [GRAPHIC] [TIFF OMITTED] 81496.078
    
    [GRAPHIC] [TIFF OMITTED] 81496.079
    
    [GRAPHIC] [TIFF OMITTED] 81496.080
    
    [GRAPHIC] [TIFF OMITTED] 81496.081
    
    [GRAPHIC] [TIFF OMITTED] 81496.082
    
    [GRAPHIC] [TIFF OMITTED] 81496.083
    
    [GRAPHIC] [TIFF OMITTED] 81496.084
    
    [GRAPHIC] [TIFF OMITTED] 81496.085
    
    [GRAPHIC] [TIFF OMITTED] 81496.086
    
    [GRAPHIC] [TIFF OMITTED] 81496.087
    
    [GRAPHIC] [TIFF OMITTED] 81496.088
    
    [GRAPHIC] [TIFF OMITTED] 81496.089
    
    [GRAPHIC] [TIFF OMITTED] 81496.090
    
    [GRAPHIC] [TIFF OMITTED] 81496.091
    
    [GRAPHIC] [TIFF OMITTED] 81496.092
    
    [GRAPHIC] [TIFF OMITTED] 81496.093
    
    Mr. Souder. Mr. Bach.

   STATEMENT OF BILL BACH, DIRECTOR, OFFICE OF ASIA, AFRICA, 
       EUROPE, AND NIS PROGRAMS, U.S. DEPARTMENT OF STATE

    Mr. Bach. Chairman Souder and Ranking Member Cummings, 
thank you very much for this opportunity to present to the 
subcommittee our views on opium trade, Taliban, and terrorism.
    The following statement is an abridged version of a 
prepared statement that you have in front of you, I hope.
    We have ample evidence that the Taliban has condoned and 
profited from the drug trade. We also know that the Taliban has 
provided sanctuary to and received military assistance from 
terrorist groups in Afghanistan. Taliban taxes on opium 
harvests, heroin production, and drug shipments have helped 
finance its military operations against rival factions. These 
taxes also bestowed legitimacy on Afghan drug traffickers.
    Despite the Taliban's ban on poppy cultivation last year, 
opiates smuggled out of Afghanistan continue to de-stabilize 
the region by spreading addiction, HIV, AIDS, and crime. This 
uninterrupted trafficking suggests that the Taliban's poppy ban 
is not a sincere effort to stop the drug trade.
    Before last year's ban, the Taliban collected from 10 to 20 
percent taxes on the yield of poppy fields, as well as taxing 
the processing, shipment, and sale of opiates. According to 
United Nations' estimates for 1999, the value of the Afghan 
opium crop at the farm gate was $265 million, which represents 
at least $40 million in tax revenue for the Taliban. However, 
if the Taliban is directly involved in the drug trade, as 
alleged by some United Nations reporting, its revenue may be 
far greater.
    We know, for example, that an estimated potential street 
value of Afghan opium or heroin, rather, in the west in the 
year 2000 was $35 billion.
    The Taliban's ban on the cultivation of poppy last year 
effectively eliminated approximately two-thirds of the world's 
annual illicit opium supply. However, while the price for opium 
has increased substantially in the subregion over the past 
year, the price for heroin has not. The flow of opiates out of 
Afghanistan has not abated. Narcotics interdictions by 
Afghanistan's neighbors show record seizures of Afghan opiates 
flowing out and precursor chemicals flowing in. This clearly 
indicates that Afghan heroin traffickers are drawing from their 
stockpiles, presumably with the knowledge and perhaps the 
collusion of some in the Taliban.
    While we do not have clear evidence directly linking drug 
traffickers and terrorists in Afghanistan, Taliban 
responsibility is implicit, given its de facto control over 90 
percent of the country. There is a natural symbiosis between 
the Taliban and narcotics traffickers, whose smuggling and 
money laundering networks would be of great help in the 
Taliban's efforts to circumvent United Nation's sanctions. And 
the Taliban we know has given aid, training, and sanctuary to 
various Islamic terrorists and separatist groups in 
Afghanistan, including Osama Bin Laden's al-Qaeda group.
    Al-Qaeda fighters have taken an increasingly prominent role 
in the Taliban's war against the Northern Alliance, reportedly 
because war-weary indigenous Afghans are reluctant to fight. 
The United Nations reports that campaigns against the Northern 
Alliance are used by foreign terrorist groups in Afghanistan as 
live fire exercises for their fighters.
    In addition, we are aware that Osama Bin Laden has close 
relations with top Taliban leaders. Press reports indicate that 
Bin Laden encouraged the Taliban to increase its drug trade as 
part of his war against the west.
    I thank you for this opportunity to raise these important 
issues with the subcommittee.
    [The prepared statement of Mr. Bach follows:]
    [GRAPHIC] [TIFF OMITTED] 81496.094
    
    [GRAPHIC] [TIFF OMITTED] 81496.095
    
    [GRAPHIC] [TIFF OMITTED] 81496.096
    
    Mr. Souder. Thank you both for your testimony.
    Let me in the first round of my questions probe a little 
further on the connection of the Taliban and possibly the 
direct involvement in the drug trade.
    Do they simply tax the opium producers and traffickers, or 
is their participation much deeper? To what extent--to what--do 
you place any credence to the reports that they control the 
trafficking organizations in Afghanistan, and also that they 
may be giving some in-kind contributions in the tax? For 
example, when we were just down in South America in Venezuela, 
one of the things their company does is they, in their tax on 
the oil, which is totally legal and not related to this, but 
they take it in kind. It's a standard method around the world 
of not just taking a dollar contribution but an in kind. Is 
that being done here at all?
    Mr. Hutchinson. The answer is that, first of all, there's 
the historic pattern that you have referred to that any time an 
authority or any other group tries to benefit from that 
trafficking through taxation or protection money, that many 
times they will take it in kind.
    Second, there is information that the Taliban, in a number 
of instances, have taken their taxation revenues in kind, and 
that obviously puts them in the drug business, itself.
    In addition, of course, you have the stockpiling that 
there's credible information that they have engaged in the 
stockpiling, themselves.
    Mr. Souder. Do you have anything, Mr. Bach?
    Mr. Bach. If I could just add that in addition to the tax 
that's taken on the fields, the opium tax on the poppy farmers, 
there are taxes taken, as the administrator indicated, on the 
transportation and shipment of the poppy that goes to the 
Taliban, as well as protection that is given to the 
traffickers. The money from that obviously also goes from the 
checkpoints to the Taliban.
    As far as controlling the drug distributors, the 
traffickers in Afghanistan, we do have press information--we 
don't have verified information from other sources--that some 
35 of the drug trafficking organizations in Afghanistan are 
controlled by the Taliban, but we haven't been able to verify, 
as I said.
    Mr. Souder. It is important to make this distinction, 
because this isn't like a benign IRS type of the thing. In 
other words, if the United States collected a tax on an 
activity that many people didn't approve of, it doesn't mean 
that the U.S. Government is involved in that because we tax it, 
but here you're saying the tax is not like an IRS collecting a 
tax; it's the primary source of revenue for the Taliban. They 
know full well what they're doing. They are, in effect, by 
stockpiling and protecting the stockpiles, managing the flow, 
managing the price, working with the transportation. It's a 
symbiotic relationship, as opposed to a mere tax collection 
function.
    Mr. Hutchinson. To illustrate further the level of control, 
which to me is quite incredible and impressive, when the 
Taliban indicated there would not be any more poppy 
cultivation--and that's an easy thing for the government to say 
or leadership to say. In Colombia they've tried to get rid of 
the coca cultivation for a long time. But whenever the Taliban 
issued that directive, the poppy cultivation diminished 
extraordinarily, almost wiped out. So that illustrates the 
control that they have.
    And so if you think of that level of control and then what 
else is happening in terms of the stockpiling, the trafficking 
routes, obviously I think that level of control translates.
    Mr. Souder. In other words, this is less like a tax and 
more like a mafia-style organization where they're getting 
their percent of the movement that's moving through as part of 
allowing it to happen and being a participant? Would that be a 
fair categorization?
    Mr. Hutchinson. I'll leave the characterization to you on 
that one.
    Mr. Souder. OK. Do we have any information suggesting Osama 
Bin Laden and the al-Qaeda organization have directly engaged 
in or supported the drug trade? If so, what is the extent of 
that involvement? Has Bin Laden's group been involved? And what 
indirect support?
    You've alluded to this and suggested that we may not have 
direct support and implied that. I wondered if you might be 
able to take that a little further.
    Mr. Bach. We don't have anything that specifically ties the 
two together. We've heard reports. In fact, the report by the 
experts prepared for the United Nations Committee on--Special 
Committee 1333, which was talking about sanctions against the 
Taliban, did talk about the Taliban providing weapons, as 
Ranking Member Cummings suggested, to various terrorist groups 
inside of Afghanistan, war materials, weapons, etc. That's the 
kind of general indication that we have that there's a 
connection between the terrorist organizations and the Taliban 
and the drug money. I have not seen anything in any of my 
sources aside from the open sources that indicate that Osama 
Bin Laden has in any way directed the cultivation or 
processing, refining, etc., of opium.
    Mr. Hutchinson. Let me just add that, from the DEA 
perspective, there is limited information in regard to Bin 
Laden's direct participation in drug trafficking. The DEA has 
not been in Afghanistan since the 1980's. We have conducted our 
intelligence gathering from the periphery from Peshawar, 
Pakistan, from the surrounding area, but it has been an active 
gathering of information and monitoring. There is limited 
information, some of which would have to be provided to you in 
a classified setting.
    Mr. Souder. So, basically to say this another direction, 
because there's--if he gets the revenue from it, there's no 
real reason for him to be involved if he benefits from the 
revenue. You're saying, while he may not be directly--may not 
be directly raising, dealing, trafficking in it, that it is a 
primary source of income for the support groups for him, 
without whom he could not exist, and that it may, in fact, be 
providing him weapons, and, based on other sources and that--
certainly you've referred to the fact Afghanistan has very 
little economy other than this with which to provide the 
infrastructure and the support systems for him, and, 
furthermore, it appears that he may have exhausted much of his 
personal wealth, meaning he does not have--there's a lot of 
impression in the United States, because he comes from a rich 
family, that he has unlimited sources of income other than 
this, but reports are suggesting that he has exhausted that 
income, which has made him even more dependent on those who are 
protecting him, providing revenue sources.
    Would you agree with that characterization that he is 
dependent on the financial resources right now, or at least 
appears to be heavily dependent on the protection and the 
financial resources of the Taliban?
    Mr. Hutchinson. Clearly the Taliban has acknowledged that 
they have provided protection to Bin Laden. Whenever, again, 
they have that level of control over a territory, whenever you 
see the terrorist training camps and the poppy fields in the 
same geographic region, you know that there is a coexistence. 
And the fact is that both drug traffickers and violent groups 
such as terrorists have to have an area in which the rule of 
law has been diminished or the cooperation of the governing 
authorities. And we don't know the financial capability of Bin 
Laden. I wouldn't certainly say that if you dried up all the 
opium there that his activities would cease, but clearly 
whenever both groups deal in violence, both groups have to 
depend upon a diminished rule of law, that there is, as you 
have stated, that symbiotic relationship between them. But 
clearly the Taliban, which derives a substantial source of 
their revenue from the drug trade, is providing protection. You 
don't know whether weapons or other necessities of a terrorist 
organization are being provided or traded, the extent of that, 
but clearly there is that inter-relationship between them.
    Mr. Souder. Any comment on that, Mr. Bach?
    Mr. Bach. Mr. Chairman, the primary source of revenue for 
the Taliban is probably not drug trade, it is probably 
smuggling--smuggling more generally. I mean, there are a lot of 
things that transit Afghanistan in the direction of the 
northern Central Asian Republics. Contraband also heads east 
toward Pakistan and Iran, that are smuggled in, from which they 
derive quite a bit of revenue, apparently.
    I'm not that knowledgeable on al-Qaeda's sources of income, 
but I understand that a lot of it comes from charitable 
sources. They have financial networks that go worldwide whereby 
people could contribute very unknowingly to charities which 
would provide funding to al-Qaeda. We understand that there has 
been some state support. We don't know from whom, but we know 
that in the past there has been support that has been channeled 
to al-Qaeda. And I don't have the impression that he is at the 
end of his tether in terms of financing, but I'm not an expert 
on the subject.
    Mr. Souder. Thank you.
    Mr. Cummings.
    Mr. Cummings. I'm just wondering, Administrator, you know, 
President Bush has said over and over again in the news reports 
also, constantly, that we've got 4,000 FBI agents working on 
this effort with regard to September 11th, and I was just 
wondering how, if at all, has the role of the DEA changed? In 
other words, are we shifting priorities? Is it pretty much the 
same as what you've been doing? And what role have you been 
asked to take on, and, just generally, without getting into any 
classified information, how has that changed, if at all?
    Mr. Hutchinson. Thank you for the question, and I'm very 
pleased that DEA has offered a great deal of support during the 
ongoing investigation. There has been an impact in the short 
term. I think it remains to be seen as to the impact long term. 
But in the short term we have tried to provide assistance to 
the FBI, the lead agency in this counter-terrorism 
investigation. We have provided intelligence analysts to the 
FBI to assist. Each of our field divisions have been on alert 
in terms of gathering intelligence and have offered assistance 
to the FBI. Through the normal course of our investigative 
work, we have actually made arrests and turned over subjects, 
questionable people to the FBI to further that investigation.
    The sky marshal program is sort of a time of all hands on 
deck, and so I was proud of the DEA that whenever they asked 
for volunteers to get the airlines going again from a security 
standpoint we had over 1,000 volunteers. And so we have 
assisted the Attorney General as requests have been made.
    In the long term, clearly this has put an emphasis upon our 
work overseas. Having over 400 agents overseas, offices in 56 
countries, having intelligence sources in Pakistan so close to 
the area of trouble in Afghanistan, we have--we are an asset 
that has to be called upon.
    In addition, because of the work of Congress, we have 
intelligence infrastructure capabilities that has been of 
assistance, and I think that will continue in the long term.
    When I say that, I'm speaking of the sophisticated side of 
what we do and how we are able to aid the law enforcement 
community.
    And I think that, in the long term, we are a single mission 
agency focusing on drugs, and that is not going to change, but 
we're certainly going to keep our eyes and ears out as to what 
else is happening, information that we can provide that would 
help our country in dealing with the great threat that comes 
from abroad, as well.
    Mr. Cummings. You know, as you were just speaking I was 
just thinking that when we think about this war and how it has 
been described, and that we have--it's going to be an 
unconventional war where we deal with finances and all kinds of 
data, intelligence, and whatever, it seems to me that your 
organization would have to play a pretty significant role in 
all of this, and I'm just wondering whether that puts a strain 
on your resources, because, you know, we've still got all these 
other problems that we've got, and certainly it's--and I was 
just wondering, I mean, how do you see that, and at what point 
do you say, ``Mr. President, you know, we need resources.`` Or 
do you think you need more resources? If you've got people 
trying to do this and we've got to also address our domestic 
problems here that you have been dealing with all of the time, 
I was just curious.
    Mr. Hutchinson. Well, there's certainly a resource need. 
Congress has certainly been supportive of our effort at the 
DEA, and we are pleased with that. But as the--as you 
indicated, this is a new arena that we're entering that has 
this very significant law enforcement component. The President 
has said that we are either going to bring these terrorists to 
justice or we'll bring justice to the terrorists, and the first 
aspect of that is the law enforcement arena, and so there is 
that role to play.
    And I think what has been emphasized is that we cannot do 
our domestic responsibilities without having the support 
overseas, as well, and so the overseas component of the DEA I 
think will have, certainly from my view, a new emphasis and 
will have new needs because they tie together.
    Whenever we have a case in Denver or in Baltimore, with--
ultimately, we would get it back to the source, many times 
we'll have an international connection to it, and that is where 
we can have the greatest impact. To be able to further the 
investigation to that point.
    And now we see that the international drug traffickers are 
a ready source of supply for other criminal activities and that 
there is that inter-relationship.
    So I think, again, we have to wait and see as to how roles 
are adjusted down the road, but there are going to be some 
resource requirements that will have to be addressed.
    Mr. Cummings. Without naming names, I'm just wondering--and 
when you looked at your--I'm sure you all have a list of 
suspected people who may be involved in the drug trade. When 
you took a look, when your agency took a look at what the FBI 
may have come up with, the CIA, their list of terrorists, did 
you find any linkages, I mean, as far as people? I mean, in 
other words, did you have some on your list that, you know, you 
found appeared on their list with regard to the September 11th 
events at all?
    Mr. Hutchinson. I wouldn't want to comment on the specifics 
of it, but we have been tasked with checking our human 
intelligence sources, but also from EPIC in El Paso, our 
intelligence centers, as well as our other indices in order to 
see whether these names that are being checked out pop up, and 
so we have been supportive in that and will continue to do so.
    Mr. Cummings. Do you, as far as the level of cooperation 
with the CIA and the FBI and other agencies involved in this, 
do you believe that--most people that--and you were an elected 
official and you know that when we go home our constituents 
are--especially something like this, the one thing they want to 
know is, ``Well, what are we getting ourselves into and when is 
it going to be over and if it is going to be over?'' I mean, do 
you share the view of the President that this is just going to 
be a long, ongoing event, this war?
    Mr. Hutchinson. Well, I think the battle against evil is 
longstanding. I'm not sure I'm in a perfect position to comment 
on that, but yes, I think that, you know, this is going to be a 
long struggle, as the President has indicated.
    I think that it--the American people have to understand 
that we have dangers that we face that are probably unique to 
this generation, but I think that we can undermine the 
infrastructure of the terrorist organizations. Part of that is 
the drug sources, which is a subject of this hearing, and I'm 
of the view that, you know, if we commit ourselves to it, even 
if it is a longer struggle than we are used to, that we can get 
a victory over this and an absolute victory over it, and I 
think that's what the American people expect and I think that's 
what they will see.
    Mr. Cummings. Thank you.
    Mr. Gilman [assuming Chair]. Thank you, Mr. Cummings.
    The chairman had to attend another hearing but will be back 
shortly. He asked me to sit in for him.
    I want to thank our committee chairman for holding this 
morning's hearing to examine this very timely and appropriate 
topic on the drug trade and terror network and its impact on 
the terrorist network.
    The tragic, barbaric events of September 11th have brought 
numerous similar issues to the fore, and it is gratifying that 
our committee has been able to take this on and has not been 
reluctant to avoid such a difficult subject.
    And I want to join in welcoming our new DEA administrator, 
Asa Hutchinson, our former colleague, and as well as Bill Bach, 
our NIS director of Asia, Africa, Europe, and for the State 
Department.
    As you stated in our roll-out--as our chairman stated in 
our roll-out for the Speaker's Anti-Drug Task Force, there is a 
clear and compelling evidence that the Taliban regime, the 
Afghan heroin trade, and the al-Qaeda terrorist network are all 
interwoven. It is important to highlight that point because it 
has become obvious that the production and shipment of heroin 
is a key source of income for the Taliban government, as well 
as for the Osama Bin Laden there organization.
    Afghanistan has traditionally been a major supplier of 
opium poppy for the European and Asian heroin markets. However, 
since the Taliban seized power in 1996, opium production in 
Afghanistan has soared and now represents an estimated 80 
percent of the GNP of their country. Given that more than 70 
percent of the world's opium for heroin originates in 
Afghanistan, it is obvious that this illicit trade is enormous 
and highly profitable, a significant part of the Taliban's 
power base.
    Our government believes the Taliban takes in $40 million to 
$50 million annually from illicit drug revenue. I think it is 
much more than that. I think that's a highly conservative 
estimate.
    Despite repeated pledges to crack down on opiate production 
and trafficking, the State Department reports that the Taliban 
has made little or no progress in implementing that policy; 
rather, the government appears to be a willing participant in 
both the production and the export of opium and heroin.
    For this reason, Afghanistan has been decertified by the 
State Department in its annual drug certification process, and 
I think that's highly appropriate. The primary impact of this 
interwoven web of drugs and terrorism for our Nation has been 
the latter, and the majority of Afghan heroin is exported to 
Europe and Asia, not to North America; consequently, the drug 
issue has enormous policy implications for our European allies.
    While we have so far the bulk of the drug problem from 
Afghan heroin, the events of September 11th clearly illustrate 
the capabilities of the terrorists who are funded in part by 
this illicit drug trade, so I look forward to comments by our 
witnesses.
    And let me pose a few questions to you. In light of the 
fact that the bulk of Afghan heroin is exported to Europe and 
Asia for consumption, what type of cooperative efforts has the 
DEA been receiving with our allies in those regions, Mr. 
Hutchinson?
    Mr. Hutchinson. Thank you, Mr. Gilman, and it's good to see 
you again. And we've received an extraordinary amount of 
cooperation from our European counterparts. In Pakistan, 
particularly, of course, close to Afghanistan, they have been 
impacted very personally by the increased opium trade coming 
out of Afghanistan. Their consumer base, their addiction 
population has increased, but they have, even in Peshawar, 
Pakistan, where we had to pull our DEA agents out, they have 
remained there in terms of their vetted units that are 
assisting us. Our office in Islamabad is continuing and doing 
extraordinary work, but the Pakistani Government has been very 
helpful in regards to addressing the opium problem.
    In the one graphic that I had up, it showed the opium 
production in Afghanistan and in Pakistan, and you can see how 
the continued decline of the production in Pakistan, which is 
the yellow mark there, in contrast to red, which is the 
Afghanistan, so they are doing great work.
    But this is a European problem in the sense that they are 
most directly impacted, but it is our problem, as well, because 
this is something that we work collaboratively with our 
European allies. It affects the whole world, as well as them 
and us.
    Mr. Gilman. Mr. Bach, do you have any comments about 
cooperation with our allies?
    Mr. Bach. Yes, sir. I, at the beginning of the month, on 
the 13th through the 15th was in Islamabad to attend what's 
called the ``Six-Plus-Two Talks,'' which are the front line 
states around Afghanistan plus Russia and the United States, 
and there's a great deal of interest in pursuing a regional 
action plan of trying to contain the Afghan opiates at the 
borders through a lot of cooperative programs with each other 
and with Russia and the United States.
    China, the Central Asian Republics, Iran, and Pakistan are 
members of this group, and we're hoping to get more cooperation 
in the near future from European donor states. There is going 
to be a UNDCP meeting later next week which is going to address 
the issue of more support for Iran in counternarcotics.
    But Iran, for example, is doing a good deal. They've lost 
over 3,000 law enforcement officials over the last 12 years to 
heavily armed traffickers in opiates coming across the border 
from Afghanistan.
    We're getting quite a lot of cooperation from these states.
    Mr. Gilman. When you say they are heavily armed 
traffickers, who provides the arms and the protection for the 
traffickers?
    Mr. Bach. Well, as we understand it, the system that the 
Taliban has put in place with smuggling of arms circumventing 
the United Nations sanctions, etc., that would easily translate 
into the availability of arms for traffickers. But, in addition 
to that, of course, there were arms that were there from the 
hostilities with Russia, which provide a lot of the tanks. 
There are also still ongoing conflicts between the Northern 
Alliance and the Taliban militia forces, which spin off arms, 
as well, so there's a lot of capability to, I think, supply 
armaments in that country.
    Mr. Gilman. Do any of the neighboring countries, the 
immediate neighboring countries, assist in our efforts to stem 
the flow of narcotics out of that area?
    Mr. Bach. Yes, sir. Very much so. As I mentioned, I think 
the most seizures that have been accounted for in the past year 
have taken place in Iran, but there have been a great many, as 
well, in Pakistan. Both of these countries have huge problems 
having to do with the leakage of opiates as they transit their 
countries bound for western Europe. There's a lot that falls 
off the caravans, of course, in the sense of being sold 
locally, so they have terrific crime problems in those 
countries, and they are very, very forward-leaning in their 
attempts to try to interdict.
    The borders in both cases are extremely hard to control. 
They don't have sufficient technology or data bases or transfer 
of intelligence information between them to make it airtight, 
for sure, there's been quite a bit of leakage, as I've 
mentioned, but they are very much seized with the problem and 
they have been cooperating.
    Mr. Gilman. What's the usual route that they take in 
exporting their wares?
    Mr. Bach. Well, the majority of the opiates, as we 
understand it, flow through Iran. A good portion is also going 
through Tajekistan, Turkmenistan, the Central Asian Republics, 
but most of it goes through Pakistan and Iran, and I think Iran 
has the highest seizures, and we, therefore, we believe that 
they have the highest volume, as well.
    Mr. Gilman. What has been the record of the cooperation by 
Pakistan with regard to seizing the illicit narcotics?
    Mr. Bach. Well, they have been very helpful, but they have 
an extremely mountainous border which is almost impossible to 
surveil from the outposts that they have on that border. We're 
looking at different possibilities to try to enhance their 
capability for surveillance, but the problem has been that, 
with this flood coming back and forth with traditional 
traffickers and traders, it is extremely difficult to interdict 
all the flow coming across in the case of Pakistan.
    Mr. Gilman. Mr. Hutchinson, you mentioned in your testimony 
the Taliban has sharply cut opium production in 2001, yet the 
supply being exported has not declined. Does the DEA have any 
estimate of the size of the heroin stockpile in Afghanistan, as 
well as the locations of that stockpile? We've heard a lot of 
comment that they have warehoused a lot of their percent.
    Mr. Hutchinson. The estimates are that each year up to 60 
percent of the opium production would be warehoused, and so 
that was tightly controlled. That has been the habit and that 
has been the means by which they were able to control the 
prices. And even though the poppy production almost came to a 
halt after the ban in July 2000, the outflow of opium has 
continued from that country, and the indications are that is 
because of the warehoused opium that has been released, and 
that has had the effect of driving up the price substantially. 
The price has, once again, adjusted since--in the last few 
weeks, where it has once again started climbing again, and I 
think it reflects sort of an unknown future that region faces 
and how that will impact on the opium production in the future.
    If I might, Mr. Chairman, Mr. Gilman, elaborate on the 
routes that are coming out, we have an exhibit that we would 
put up on the screen which shows some of the routes that are 
going out, and in Istanbul, where I traveled to fairly 
recently, they are impacted enormously by what is going out of 
Afghanistan through the route through Turkey, and I don't see 
that going up on the screen, but that is--will be available.
    Mr. Gilman. We'll ask that they make it available.
    I see our chairman has returned. I had one more question, 
Mr. Chairman.
    Let me ask one more question. What do we know of other 
terrorist organizations around the world who are linked to drug 
trafficking? I know in Colombia, for example, the FARC are 
heavily involved. Mr. Hutchinson, do we have any other 
information of other terrorist groups involved with drug 
trafficking?
    Mr. Hutchinson. Well, as you mentioned, in Colombia you 
have the FARC, which is an insurgent or insurgency group that 
has an extraordinary violent tendency that receives a 
significant part of their funding from drug trafficking, a 
portion of their funding from drug trafficking. In addition, 
you have the Shining Path in the region of Peru. You have in 
Burma the United Wa State Army [UWSA], which is another tribal 
violent group that receives funding from drug trafficking and 
production, as well.
    And so you see that there are a number of areas of the 
world that the proceeds from drug trafficking impact on 
insurgency groups, as well as terrorist organizations.
    Mr. Gilman. And, of course, in the Bekaa Valley in Lebanon 
we have some more drug trafficking. I don't know who that 
benefits. There's some rumors about it benefiting some of the 
hierarchy in Syria. But we would welcome your keeping a close 
eye on those terrorist groups that do benefit from drug 
trafficking and advise the Congress of the names of those 
groups.
    Thank you very much, and thank you, Mr. Chairman.
    Mr. Souder [resuming Chair]. We're into a second round of 
questioning, and I wanted to ask: do you see any other 
alternative explanation other than stockpiling for the sudden 
rise of heroin prices? In other words, in your testimony we 
talked about the $200, and then it dropped to $90, as we see 
some more coming on the market, and that suggests that, in 
fact, they were stockpiling. Recent refugees coming across the 
border appear to be carrying amounts of heroin for sale, which 
suggests stockpiling. Is there any other possible alternative 
that they have been stockpiling?
    Mr. Hutchinson. I think that accounts for the--of course, 
the increase in price after the July 2000, ban was as a result 
of the decrease in the poppy cultivation, and then they were 
able to control it because what they had in stockpile. And as 
they released that with a higher price, obviously that produces 
more revenue.
    Since the--in July 2000 it was $44 per kilo. It shot up a 
year later to $373 per kilo. Right before the September 11 
attack, it actually got up as high as $746 per kilo. Since 
then, it dropped down to $95. And these are averages for 
prices, because there is some fluctuation.
    Mr. Souder. Is that a worldwide average or United States?
    Mr. Hutchinson. No. This is in that region.
    Mr. Souder. OK. Subregion.
    Mr. Hutchinson. In that region of the world it has been 
reduced again, and that's because they were dumping it. They 
were getting it out of their stockpiles that reduced the price. 
And then again we've seen a little bit more stabilization now 
with prices reported back up again to $429.
    So you can see from this that it is very volatile as far as 
the pricing goes right now, I think responding to world events 
and the unpredictability of a future in that region. But it is 
important that to this point we have not seen a change in 
consumer prices, which indicates there certainly is an adequate 
supply for opium still available. We'll have to wait and see if 
that is impacted. Certainly we hope that it will be.
    Mr. Souder. So you haven't seen a change in consumer prices 
in the United States, or is that true of Europe, also?
    Mr. Hutchinson. In both instances.
    Mr. Souder. And have you seen more seizures on the border, 
or have the seizures stayed about the same in Iran and Pakistan 
and other places? In other words, when they stopped the 
cultivation, you mentioned more precursors were going in. You 
didn't see a change in that. Did you see any dramatic change in 
seizures because if all of a sudden they didn't have it, 
supposedly seizures would have gone down, too.
    Mr. Bach. I think I noted that the seizures were at record 
levels, actually, in the past year, despite the fact that there 
was a ban on production inside of Afghanistan. And, of course, 
they've even gone up more recently since the 11th as a result, 
I think, of what the administrator mentioned, which is the 
dumping of the stuff.
    Mr. Souder. So, if I can understand and get into the record 
a couple of basic things here, is our heroin in the United 
States, is it about 10 percent from that region?
    Mr. Hutchinson. A little bit less than 10 percent.
    Mr. Souder. And in Europe, what percent would it be from 
that region?
    Mr. Hutchinson. It would be up around the 80 to 90 percent 
level.
    Mr. Souder. And could it--are prices such that they could, 
in fact, or have you seen any sign that they might be targeting 
an influx into the United States?
    Mr. Hutchinson. In the United States, we get over 80 
percent of our heroin from Mexico and Colombia and the regions 
to the south, so it is a small percent that we get from 
southwest Asia. And I'm sorry, Mr. Chairman, I just lost your 
question.
    Mr. Souder. Well, that basically addresses it, because 
we've seen increase in poppy cultivation in Peru and Ecuador, 
as well as Colombia, and in effect you're saying that's the 
primary market can continue to be, and since they are 
increasing their growth of heroin it's not likely we're going 
to get an influx through Afghanistan.
    Could you also, Mr. Bach, talk a little bit about--we've 
historically thought of heroin coming from the Golden Triangle 
and from northern Thailand, which a number of years ago was 
very aggressive in getting rid of it, and from Burma. It looks 
like it is sliding to the west, and what impact that's had on 
trafficking.
    It also suggests to me, by the comments that both of you 
made a little earlier regarding Iran and Pakistan being the 
primary trafficking zone, as opposed to being north, that, in 
fact, the civil war may have pushed it south-southeast, which 
is a different direction than the primary markets would be if 
they're not coming to the United States.
    Could you talk a little bit about the changing heroin 
trafficking patterns in that zone of the world as it relates to 
Europe and to their major markets for that heroin, and 
illustrate also how the earlier points in when you have a 
breakdown in law--in effect, the Golden Triangle had no law. 
Law came in. They moved to Burma. You had a breakdown. There 
was some attempt there. They moved again.
    Could you illustrate kind of the trafficking pattern of how 
it wound up in Afghanistan?
    Mr. Bach. Yes, I'll try. Like, Mr. Hutchinson, I've just 
been at this job for a while, but I did go to Burma and to 
Thailand, Chiang Mai, and to Viet Nam to talk to some of the 
people in the major producing nations in that part of the 
world. There has been a shift. As Mr. Hutchinson indicated, 
most of our heroin is coming from Colombia and from Mexico 
these days, no longer from the Golden Triangle. That's mostly 
goes to Europe. But there has been a terrific cutback in the 
production, as we understand it, of opium poppy in the Golden 
Triangle, and part of that has to do with the fact that they've 
had serious drought there for 3 years, and the CNC indicates 
that the yield has been down quite a lot I have seen poppy pods 
that they've brought back which are withered and don't, I 
guess, yield very much as a result. So part of it is that.
    The cease-fire territories of Burma, the areas that back in 
1996 and 1997 had reached cease-fires with the government 
there, had been given a certain number of years to eliminate 
the cultivation of poppy. Some of those have made progress in 
that direction, because the Burmese officials have taken some 
action.
    In the case of the Wa, there are a number of UNDCP programs 
we're also supporting through State Department INL, which 
support alternative development for the Wa peoples, and they're 
introducing other crops, of course.
    We're seeing a lot of cooperation these days regionally 
with the Thai and the Laotians and the Chinese getting 
together--the Vietnamese, too, to some degree--and cooperation 
on intelligence sharing, extradition of drug lords. That 
happened after the Beijing Conference in August 2001. The 
Burmese, for the first time, rendered some ethnic Chinese who 
were residing in Burma to the Chinese officials for 
prosecution.
    One of the major developments that officials mentioned in 
Southeast Asia was that, now that heroin seems to be kind of on 
the wane in terms of both production and trafficking, there's a 
great influx of methamphetamines, which has found a thriving 
market, particularly in Thailand but also in Viet Nam, where 
these methamphetamine pills, which are called ``crazy pills,'' 
are very available. They have been used to some degree as a 
substitute, apparently, for heroin by addicts, and they create 
all kinds of the problems that we've associated here in the 
United States in the past with amphetamines. It is a killer 
drug and it has caused a great deal of crime and addiction, as 
well as all the other consequences socially in those countries. 
It is a major issue with them for which they're asking 
additional assistance from the United States. We're trying to 
respond to these requests with law enforcement training, 
cooperative police networks, databasing, and so forth.
    I hope that answers the question.
    Mr. Souder. And we're going to continue to track synthetic 
and methamphetamines. I know Director Hutchinson has been very 
involved in that area. Our upcoming next annual transatlantic--
now trans-Atlantic and-Pacific--legislative conference is going 
to focus on synthetic drugs, because the Asians were 
particularly concerned about that. I know the DEA told me 4 
years ago they were concerned that Viet Nam was going to become 
a major trafficking area as it opened back up, and many 
Americans, unfortunately, got addicted to a lot of the 
narcotics over there. It could easily become a transit zone. So 
we'll be doing followup with that.
    I wanted to ask one more question. Another hot topic right 
now is the intelligence coordination and cooperation that 
Chairman Sensenbrenner is doing in markup this afternoon 
because of our concerns on the U.S. border and elsewhere about 
lack of intelligence cooperation in the United States and 
ability to share information. This has been a touchy issue 
internationally, as well, that has been a subject on some of 
the national debate programs. For example, I watched Larry 
Johnson, who has testified in front of this committee many 
times on our anti-terrorism subjects, debate with former DEA 
Director Mr. Constantine on this very subject, and I wondered 
whether you feel, in the subject of Afghanistan, Mr. 
Hutchinson, that there has been adequate cooperation in State 
Department, CIA, DEA, whether there's anything legislatively 
that we need to look at that would overcome any limitations in 
intelligence sharing like we've had problems in the domestic 
side in the United States.
    Mr. Hutchinson. I could not point to any problem in that 
regard, from my experience. Certainly, there's always arenas 
that you want to do better and you need to enhance that 
cooperation and sharing.
    I think the--it is critically important that, as different 
intelligence arenas get information that might apply to drug 
trafficking, that information be provided, but at the same 
time, as we have information from our intelligence from the law 
enforcement side that might relate to the other agencies, we 
need to make sure that gets over there, as well.
    The legislation that the administration has proposed will 
certainly be helpful to make sure there's not any barriers to 
that flow of information back and forth, but my experience is 
that the cooperation is there and that the sharing--the 
willingness to share is there.
    Mr. Souder. Because we had some concerns about that in 
Peru, obviously, as well, where sometimes it seems like our 
agencies are not talking to each other as much as they could. I 
know a lot of times these decisions are instantaneous and you 
don't have that ability, and I understand that, too.
    Mr. Cummings, do you have additional questions?
    Mr. Cummings. Just two or three, Mr. Chairman.
    You know, it would--when you think about all this--and I 
assume, Mr. Chairman, one of the reasons why you called this 
hearing, when we think about the possibility that drugs, the 
sale of drugs, could be financing what we saw on September 
11th, I mean, that is enough--that is very chilling.
    And, Mr. Bach, just so that we can, as we wind down now, I 
just want to make sure I'm clear on, you know, what your 
testimony was. I think you said that you don't believe that the 
drug funds--funds coming from the drug sales--are a major--and 
I'm just--I just want to make sure I'm clear on where you are--
a major part of the funds used by al-Qaeda and Bin Laden for 
these terrorist acts; is that correct? Is that a safe--I mean, 
is that an accurate statement?
    Mr. Bach. Yes. I think that, although it certainly is a 
contributor, a major contributor to the Taliban, we don't have 
any information that it's providing a great deal of the 
wherewithal, financial resources of al-Qaeda. We think that 
money laundering and financial networking, legitimate 
businesses, charitable enterprises, etc., are all contributing 
to it. There's a very, very complex network that provides money 
for al-Qaeda, as we understand it. We are not aware of to what 
degree drug money is part of that.
    Mr. Cummings. I want to get back to you, Administrator, but 
I just want to just take that one step further. I guess this is 
to both of you. From what you're seeing--I mean, September 11th 
and the things that--information that may have come to you 
subsequent to September 11th, is there--I mean, do you all 
become more concerned that what you just said, Mr. Bach--in 
other words, that there would become possibly a use for drug 
money? In other words, are there are things that are happening 
that would cause you to say, ``Wait a minute, now, this may not 
have been--these drug funds may not have been used to a great 
extent,'' but have you learned things that would cause you to 
say circumstances may be changing that would, you know, would 
raise you to a new level of concern?
    Mr. Bach. Briefly, yes. I think that narco-terrorism has 
been a great concern for us for a while, and this, of course, 
has heightened it exponentially in terms of the effect of what 
happened on September 11th. On the other hand, we are looking 
at a whole range of possibilities for the financing of al-
Qaeda. Drug money certainly is one of the major stays or 
resources that was used by the Taliban. The Taliban had a very 
intimate relationship with al-Qaeda. So we're certainly not 
discounting the impact of drug money. It's huge and it is, I 
think, pervasive, but it just doesn't seem, from what we've 
seen so far, to be the major resource for al-Qaeda.
    Mr. Cummings. Well, before you answer that, Mr. Hutchinson, 
let me just slip this in. I'm just wondering why do we have a 
situation where, because of what--of the actions that the 
President is taking, might that force--I mean, is there 
something about drug trade that, when we are attacking all 
these other elements, would make it more attractive to do 
business with--you understand--to get money from? Are there 
things about it that, when you are attacking all the things 
that the President has talked about, would cause one to say, 
``If I'm trying to get money into the al-Qaeda, say, OK, guys, 
we've tried all of that. The United States and all these other 
nations are putting pressure on us from every angle, so let's 
try to get more money from these drugs?'' And so do you see 
that as a possibility, a probability?
    Mr. Hutchinson. I think that is an option that is out 
there. Whenever you have a terrorist organization that has to 
have sources of money and they are geographically alongside 
drug organizations that produce money, then there is obviously 
the potential for a stronger connection between the two.
    And, in answer to your first question, there is, I believe, 
a new level of concern that we have, because our primary focus 
in this country is to go after the terrorist organizations. One 
part of that--we don't know whether it's small or large in 
specific instances, but one part of that would be any benefits 
that the terrorist organizations get from the drug trafficking 
organizations and the money from that.
    In some instances, it might not be money, but I think that 
there would certainly be some mutually beneficial relationships 
that would exist, and I think that you have to be concerned 
about the money side of it, but also any other benefits that 
might be derived from their coexistence and their friendships.
    Mr. Cummings. When you think about a--you know, although we 
don't know the extent of it, but when you think about $25,000 
buying a pilot lessons sufficient enough to do the kind of 
destruction that was done on September 11th, if that's all they 
got that's a lot. So I think I understand your concern.
    Did you have something else, Mr. Bach?
    Mr. Bach. No. I think I would agree with your point, 
though. The thrust, I believe, is that there are many things in 
the drug trade that would recommend the drug trade and its 
financial networks and money laundering to terrorists, and I 
agree that there is that synergy, and we certainly are going to 
be looking very carefully to see if this is translated into 
additional al-Qaeda resources.
    Mr. Cummings. Last question, on the synergy, do we have any 
evidence--and if you can't talk about it, let us know--that 
would show that the relationship between al-Qaeda and Bin Laden 
and, say, drug traffickers is in any way used to recruit folks 
to be these terrorists, soldiers, or whatever you want to call 
them?
    Mr. Hutchinson. I have no information on that.
    Mr. Souder. All right. Thank you very much.
    Mr. Souder. I have a few additional questions I want to 
make sure we get for the record.
    Both Mr. Cummings and I have referred to the threats that 
came from the FARC leader, Jorge Rosino. Do you believe that 
was a credible threat? Do you believe that we need to take any 
actions regarding that threat? And would you discuss briefly 
whether you think the FARC has the ability to carry out those 
threats?
    One of the other dangers that we have of al-Qaeda 
apparently being able, through their network, to attack the 
United States is it could tempt other terrorist organizations 
around the world to repeat those type of things. In other 
words, we're facing more than just one type of terrorist.
    Could you discuss the FARC and their capability and the 
credibility you put to their threat?
    Mr. Hutchinson. Well, in reference to the threat that you 
mentioned, it was publicly noted. I think we take any threat of 
that nature or statement of that nature fairly seriously. But, 
from our experience, the FARC is primarily concentrated as an 
insurgency group in that region, and they are a serious threat 
to the safety of our citizens who are in that region, but there 
has not been any indication that they've tried to move this 
direction into the United States to accomplish acts of 
violence.
    I think it is certainly something that you have to bear 
monitoring, because the trafficking organizations that work out 
of Colombia, their motivation is money, but certainly they have 
the capability with the cells internationally and their 
operatives internationally that if they decided to do harm in a 
different direction they would probably have the capability to 
do that.
    Mr. Souder. We'd like you to stay very much on top of this, 
because when Speaker Hastert chaired this subcommittee and we 
went over and looked at Khobar Towers, and as we looked at 
anti-terrorism patterns around the world, Bin Laden's network 
appeared to be doing the attacks on American citizens abroad, 
whether we've seen USS Cole, the Embassies, the Khobar Towers, 
and then moved to domestic attacks. And the danger of the drug 
terrorists in the south is that they have a whole network of 
people here that obviously are able to sell on almost every 
street corner, and we need to keep a very close eye on all the 
terrorist groups. We see the IRA moving in other zones. We see 
the Russians in other zones, their dissident groups, and 
Ukrainians, and we just need to be very careful because we need 
to understand that terrorism is a different type of battle.
    If I could ask you a couple of additional questions yet, 
another question is: do you believe that--and this was the 
other part that we didn't get done in my other question--do you 
believe that, in fact, the Taliban has the ability or any 
desire to dump any kind of heroin or opium in the United States 
at this point? In other words, there have been questions of 
whether they were going to do that. Do you believe that there 
are legitimate signs of concern that they may try to get a 
share of this market or try to increase the heroin amount even 
at the same time the South Americans and Central Americans are 
also trying to increase the amount of heroin coming in?
    Mr. Hutchinson. I think what they want is a market, and the 
market is ready and available and more convenient in Europe. I 
think, generally speaking, they see opium production and 
transportation and heroin use as a weapon against the west, and 
so I don't think they have any problem causing us harm in that 
fashion. They see the west generally as whether it's Europe or 
whether it's the United States.
    I think, though, that's as far as you can, you know, reach 
to conclusions on that, based upon our information.
    Mr. Souder. Given that what you're monitoring in this and 
the other things, do you believe that there should be any 
changes to the national narcotics control strategy that we 
currently have based on the fact that we now have potentially 
indirect threats as well as direct threats? Our whole premise 
of our anti-narcotics control strategy is controlling our 
borders, the source of where the drugs are coming into the 
United States, and all the sudden we have another potential 
impact, and that is international drug sales to other nations 
could, in fact, finance terrorists who are coming into the 
United States.
    Do you believe we should make any changes or look at 
changes in our national drug control strategy?
    Mr. Hutchinson. I certainly think that it should be 
examined, and that's something I assume that John Walters will 
do once he is confirmed by the Senate.
    From my view, I think that it should be looked at and I 
think that we should give some serious consideration to our 
investment overseas in terms of our anti-drug efforts.
    Mr. Souder. And we essentially need the Drug Control Office 
up and running with a permanent director, because we have a 
number of things on the domestic front on demand reduction, as 
well as the international.
    I'd like to make a couple of closing comments.
    One is, what we can hear on the Taliban is that 
legalization and taxing really didn't work. We often hear of, 
``If we just legalize things and tax it, will it work?'' Here 
we've seen it become part of the economic fabric of a nation, 
because, in fact, it became a primary source of income with 
other forms of smuggling, because drug trafficking is, in fact, 
smuggling; that Taliban clearly is directly involved in the 
drug trade, both in the taxation and apparently dealing some, 
themselves. We apparently do not know the extent that al-Qaeda 
and Bin Laden are directly involved, but we do know that 
they're deriving at least support from the Taliban, possibly 
other means of support, and that's what you'll be looking at 
and keeping us posted, as well, on what kind of support they're 
getting.
    It's also pretty clear that, apparently for the Taliban 
intermediaries, they're not going to let religion stand in the 
way of profit, and they've made their decisions based on very 
practical decisions, in addition to their supposed devotion to 
Islam. They were willing to compromise it in order to forward 
their political goals.
    And I think that, last, I want to say that Ranking Member 
Cummings made a terrific point earlier, because one of the most 
common questions we hear are biochemical warfare. In fact, 
there is a biochemical warfare launched on the United States by 
drug traffickers in that it has taken a minimum 16,000 lives a 
year directly, as well as many other lives indirectly in the 
United States--huge numbers. And we shouldn't forget that is a 
form of terrorism on our streets every day and in our 
neighborhoods, and we're seeing kids die, and I thank him for 
bringing that point.
    With that, our hearing stands adjourned.
    [Whereupon, at 11:42 a.m, the subcommittee was adjourned, 
to reconvene at the call of the Chair.]

                                   - 

</pre></body></html>
